No. 19-438
_______________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
Clemente Avelino Pereida,
Petitioner,
v.
William P. Barr, Attorney General,
Respondent.
_______________
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX
_______________
Pursuant to Rule 26.8 of the Rules of this Court, petitioner Clemente Avelino
Pereida moves for leave to dispense with the requirement of a joint appendix in this
case. The respondent agrees that a joint appendix is not necessary.
This immigration case presents a question regarding the application of the
Immigration and Nationality Act to past criminal convictions. The opinions of the
court of appeals, the Board of Immigration Appeals, and the immigration judge are
included in the appendix to the petition for certiorari. The only other pertinent
material is the record of petitioner’s 2010 Nebraska criminal conviction, which is a
five-page document; the parties do not believe that any other portion of the record
merits special attention that warrants the preparation and expense of a joint
appendix, nor do they believe that a separate joint appendix would materially assist
the Court’s consideration of the case. Accordingly, petitioner proposes to include the
five-page record of conviction as an appendix to his brief, which is the approach that

2
was permitted in the same circumstances in Moncrieffe v. Holder, No. 11-702 (O.T.
2012).
We are authorized to state that the Solicitor General, on behalf of respondent,
agrees with this proposed approach.
Respectfully submitted,
/s/ Brian P. Goldman
Brian P. Goldman
Counsel of Record
ORRICK, HERRINGTON &
SUTCLIFFE LLP
405 Howard Street
San Francisco, CA 94105
(415) 773-5700
brian.goldman@orrick.com
January 10, 2020

